No. 20-812

In the Supreme Court of the United States
LISA M. FOLAJTAR,

Petitioner,
v.
JEFFREY A. ROSEN, ACTING ATTORNEY GENERAL OF
THE UNITED STATES; ET AL.,

Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae Mountain States Legal Foundation’s Center to Keep and Bear Arms in
Support of Petitioner contains 5,949 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 14, 2021.
/s/ Cody J. Wisniewski
Cody J. Wisniewski
Counsel of Record
MOUNTAIN STATES
LEGAL FOUNDATION
2596 South Lewis Way
Lakewood, Colorado 80227
(303) 292-2021
cody@mslegal.org
Attorney for Amicus Curiae

